                                                                               Issue Date
                                                                                   August 16, 2011
                                                                               Audit Report Number
                                                                                   2011-NY-1012




TO:            Deborah C. Holston, Acting Deputy Assistant Secretary for Single Family Housing,
                                                         HU


FROM:           Edgar Moore, Regional Inspector General for Audit, New York/New Jersey
                                                          Region, 2AGA

SUBJECT:        Ameritrust Mortgage Bankers, Inc., Lake Success, NY, Did Not Always
                Comply With HUD-FHA Loan Origination and Quality Control Requirements

                                            HIGHLIGHTS
    What We Audited and Why

                 We audited Ameritrust Mortgage Bankers, Inc., a nonsupervised1 lender located
                 in Lake Success, NY, in support of the Office of Inspector General’s (OIG) goal
                 of improving the integrity of single-family insurance programs. We selected this
                 lender due to its originating activity and its 8.93 percent default rate for Federal
                 Housing Administration (FHA)-insured single-family loans with beginning
                 amortization dates between November 1, 2008, and October 31, 2010. This rate
                 was nearly triple the New York State average of 3.05 percent for the same period.

                 The audit objectives were to determine whether Ameritrust officials (1) approved
                 FHA-insured loans in accordance with the requirements of the U.S. Department
                 of Housing and Urban Development (HUD)-FHA and (2) implemented a quality
                 control plan in accordance with HUD-FHA requirements.

    What We Found

                 Ameritrust officials did not always approve FHA-insured loans in accordance
                 with HUD-FHA requirements. Specifically, 11 of the 20 loans reviewed

1
  A nonsupervised lender is a HUD-FHA approved lending institution, the principal activity of which involves
lending or investing funds in real estate mortgages.
           exhibited material underwriting deficiencies, such as inadequately verified and
           documented borrowers’ income, assets, liabilities, and credit histories. As a
           result, the FHA insurance fund incurred actual losses of $183,327 on 1 loan and
           faces potential losses of more than $2.7 million on 10 loans, for total losses of
           more than $2.9 million. Ameritrust officials also charged the borrowers $3,843 in
           unallowable fees, namely excessive loan discount and second appraisal fees,
           without providing written justification.

           Ameritrust officials did not ensure that their quality control plan was implemented
           in accordance with HUD-FHA requirements. Consequently, the quality control
           plan provided no assurance that deficiencies in the loan origination and
           underwriting processes were promptly identified and appropriate corrective
           actions were taken to prevent recurrences.

What We Recommend

           We recommend that HUD’s Acting Deputy Assistant Secretary for Single Family
           Housing require Ameritrust officials to (1) indemnify HUD against future losses
           related to the 10 loans, which were underwritten in violation of HUD-FHA
           requirements; (2) reimburse HUD $183,327 for the claim and related fees paid on
           one loan; (3) ensure that borrowers have been reimbursed $3,843 for unallowable
           excessive loan discount and second appraisal fees; and (4) establish procedures to
           ensure that the quality control plan is implemented in accordance with HUD-FHA
           requirements. If the lender officially ceases its operations, the recommendations
           applicable to the quality control finding are not warranted.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.
Auditee’s Response

           We discussed the results of the audit with auditee officials during the audit,
           provided them with a copy of the draft report, and requested their comments on
           July 25, 2011. We held an exit conference on August 3, 2011, at which time the
           officials generally agreed with the draft report findings. Auditee officials chose
           not to provide written comments. However, it was agreed during the exit
           conference to remove the reference to a violation of the tier pricing rule reported
           in the unallowable fee section of finding one due to the auditee’s clarification.




                                             2
                              TABLE OF CONTENTS

Background and Objectives                                                              4

Results of Audit
        Finding 1: Ameritrust Officials Did Not Always Comply With HUD-FHA             5
                   Requirements in the Approval of FHA-Insured Loans

        Finding 2: Ameritrust Officials Did Not Implement Their Quality Control Plan   13
                   in Accordance With HUD-FHA Requirements

Scope and Methodology                                                                  18

Internal Controls                                                                      20

Appendixes
   A.   Schedule of Questioned Costs and Funds To Be Put to Better Use                 22
   B.   Summary of Material Underwriting Deficiencies                                  23
   C.   Schedule of Actual and Potential Losses to the FHA Insurance Fund              24
   D.   Case Summary Narratives                                                        25




                                              3
                     BACKGROUND AND OBJECTIVES

Ameritrust Mortgage Bankers, Inc., was established in 1987 as a licensed mortgage bank with
the New York State Banking Department. Ameritrust operates in New York, New Jersey, and
Florida, and its main office is located in Lake Success, NY.

Ameritrust was approved as a nonsupervised lender on October 19, 1994. A nonsupervised
lender is a U.S. Department of Housing and Urban Development (HUD), Federal Housing
Administration (FHA), approved lending institution, the principal activity of which involves
lending or investing funds in real estate mortgages. A nonsupervised lender may be approved to
originate, sell, purchase, hold, and service FHA-insured mortgages.

For the period November 1, 2008, through October 31, 2010, Ameritrust officials originated 571
loans, of which 51 loans valued at more than $23.5 million were in default. As a result, the
default rate during the 2-year period was 8.93 percent, which was nearly triple the New York
State average of 3.05 percent.

On May 24, 2011, we were informed by an Ameritrust official that the mortgage bank was
ceasing its operations. Consequently, our last day of audit fieldwork was May 31, 2011.
However, as of August 8, 2011, HUD officials advised that the lender’s FHA approval status is
“still active”, as the lender has not notified them of it closing.

The audit objectives were to determine whether Ameritrust officials (1) approved FHA-insured
loans in accordance with HUD-FHA requirements and (2) implemented a quality control plan in
accordance with HUD-FHA requirements.




                                              4
                                      RESULTS OF AUDIT

Finding 1: Ameritrust Officials Did Not Always Comply With HUD-
           FHA Requirements in the Approval of FHA-Insured Loans

Ameritrust officials did not always comply with HUD-FHA requirements in the approval of
FHA-insured loans. As a result, 11 of the 20 loans reviewed exhibited material deficiencies,
such as inadequate verification of income or employment, unsupported assets, inadequate gift
documentation, excessive ratios without adequate compensating factors, underreported liabilities,
significant credit-related deficiencies, faxed documentation, skipped mortgage payments,
inadequate verification of occupancy, and inconsistent information not reconciled by Ameritrust
officials. These deficiencies occurred because officials did not have adequate controls to ensure
that the borrowers’ income, assets, liabilities, and credit history were adequately verified and
documented in accordance with requirements. As a result, the FHA insurance fund incurred a
loss of $183,327 on 1 loan for which a claim was paid and faces potential future losses of
$2,742,8102 on 10 loans, for more than $2.9 million in total losses. Ameritrust officials also
charged the borrowers $3,843 in unallowable fees, such as excessive loan discount and second
appraisal fees, without providing written justification.



    Material Underwriting
    Deficiencies Noted


                 Ameritrust officials originated 11 loans that exhibited material underwriting
                 deficiencies. While the underwriting process is somewhat subjective, these
                 deficiencies occurred because officials neither always followed HUD-FHA
                 requirements nor exercised due diligence in verifying and documenting the
                 borrowers’ income, assets, liabilities, and credit history. In addition, officials
                 charged the borrowers unallowable fees without providing written justification. The
                 table below summarizes the deficiencies identified in the 11 loans. These
                 deficiencies are not independent of each other as all loans exhibited at least one
                 material deficiency.




2
  This amount is computed as 59 percent of the $4,648,830 unpaid principal balance of the 10 loans. The 59 percent
loss rate is based on HUD’s Single Family Acquired Asset Management System’s “case management profit and loss
by acquisition” computation for fiscal year 2010 based on actual sales.


                                                        5
                                                       Number of
                                Deficiency
                                                         loans
                         Income                            4
                         Assets                            3
                         Gift funds                        5
                         Excessive ratios                  3
                         Liabilities                       1
                         Credit                            3
                         Faxed documentation               9
                         Skipped mortgage                  1
                         Occupancy                         1
                         Inconsistent information          3
                         Unallowable fees                  5

            Appendix B of this report provides a summary of the material underwriting
            deficiencies identified in each of the 11 loans, and appendix D provides detailed
            descriptions of these deficiencies, as well as the applicable HUD-FHA
            requirements.


Inadequate Verification of
Income and Employment


            Ameritrust officials neither adequately verified nor documented the monthly
            income of four borrowers approved for FHA-insured loans. For example,
            regarding FHA case number 374-4979970, officials calculated the borrowers’
            monthly income by including $1,732 in the calculation of overtime and other
            income without properly verifying and documenting that such income had been
            received for the past 2 years and was likely to continue. Further, the loan file did
            not contain written verifications of employment or other documentation
            substantiating an earnings trend for the overtime and other income. Since written
            verifications of employment were not obtained, Ameritrust officials were required
            to obtain the borrowers’ original pay stubs covering the most recent 30-day
            period. Verbal verifications of employment were found in the file; however, there
            was no documented information related to the borrowers’ overtime and other
            income. Lastly, while Ameritrust officials documented the 2006 and 2007
            Internal Revenue Service (IRS) Forms W-2 for the borrowers, based on the total
            wages reported, neither borrower received overtime and other income during the
            2-year period examined.




                                             6
    Unsupported Assets

                 Ameritrust officials did not adequately verify or document the assets of three
                 borrowers approved for FHA-insured loans. For instance, with regard to FHA
                 case number 374-5118521, the borrowers’ transaction history disclosed a $3,0873
                 preauthorized credit on February 2, 2009, that was not payroll related. In
                 addition, Ameritrust officials reported that the borrowers had verified assets of
                 $15,043; however, audit results confirmed only $9,043 of that amount, which
                 included the $3,087. Since the borrowers needed $7,800 to close and had verified
                 assets of $9,043, Ameritrust officials should have obtained an explanation from
                 the borrowers regarding the source of this large credit. Without the explanation,
                 Ameritrust officials did not properly verify and document the borrowers’ assets.

    Inadequate Gift Documentation

                 Ameritrust officials neither adequately verified nor documented the source of gift
                 funds used for five borrowers’ earnest money deposits or closing requirements.
                 For example, in FHA case number 374-4964772, Ameritrust officials did not
                 adequately document the source of a $10,000 gift used as part of the borrowers’
                 $20,000 earnest money deposit. The loan file documented a copy of a gift
                 affidavit from the borrowers’ daughter-in-law, indicating that the gift funds were
                 transferred on October 28, 2008; an official check made payable to the seller’s
                 attorney on the same day; and a copy of the gift donor’s certificate of deposit,
                 showing the donor’s ability to provide the gift. While the $10,000 certificate of
                 deposit was opened on August 19, 2008, it was due to mature on November 19,
                 2008. Nevertheless, Ameritrust officials did not document evidence of the early
                 withdrawal of the certificate of deposit or a copy of the canceled check as
                 required. Consequently, Ameritrust officials did not provide assurance that the
                 gift funds came from the donor’s personal account and ultimately did not come
                 from an unacceptable source.

    Excessive Ratios Without
    Adequate Compensating
    Factors

                 Ameritrust officials approved three FHA-insured loans that had qualifying ratios
                 in excess of HUD’s benchmark guidelines of 31 and 43 percent, as set forth in
                 Mortgagee Letter 2005-16, without providing valid compensating factors. For
                 instance, regarding FHA case number 374-5118521, the mortgage payment-to-

3
 A preauthorized credit is an agreement between the payer and the payee to directly deposit funds from the payer
into the payee’s bank account.


                                                         7
            income (front) and total fixed payment-to-income (back) ratios were 47.14 and
            49.05 percent, respectively. The following compensating factors were recorded in
            the underwriter comments section of the FHA loan underwriting and transmittal
            summary: “FICO [Fair Isaac Corporation]: 601/611; FHA purchase 3.5% down
            payment; FHA county limit: $625,500; Borrower was out on disability for 2
            months in 2008 for her 2nd job; Income used for her 2nd job was averaged for
            2008 and YTD [year to date] (12 months); Two months reserves available after
            closing; Stable employment.” Yet, these are not valid compensating factors as
            defined by the HUD Handbook 4155.1, REV-5, paragraph 2-13. The first four
            underwriter comments listed are not HUD-prescribed compensating factors. The
            earnings from the first borrower’s second job were already considered in the
            qualifying income. Further, while Ameritrust officials reported that the borrowers
            had 2 months of reserves available after closing, 3 months of documented cash
            reserves would have been required to justify the loan’s approval. In addition,
            despite the borrowers’ stable employment, Ameritrust officials did not document
            the borrowers’ potential for increased earnings.


Underreported Liabilities

            Ameritrust officials approved one FHA loan while underreporting the borrowers’
            liabilities. For FHA case number 374-4894823, Ameritrust officials excluded
            from the borrowers’ total monthly installment debt calculation a $113 payment
            due on a $5,018 line of credit reflected on the bank statement as of September 9,
            2008. This liability was excluded because it was not reported on the borrowers’
            credit report, dated October 1, 2008. While a handwritten notation on the credit
            report indicated that the borrowers’ had a “new trade” and the loan application
            listed a $112 monthly debt on a $4,500 unpaid balance that was not reflected on
            the credit report, Ameritrust officials did not provide the account number of the
            “new trade” or evidence to demonstrate that the debt related to the borrowers’ line
            of credit. Consequently, Ameritrust officials provided no assurance that they
            properly accounted for all of the borrowers’ liabilities. Had Ameritrust officials
            included this liability in the borrowers’ debt calculation, total monthly installment
            debt would have increased from $2,202 to $2,315, and the total fixed payment
            would have increased from $5,517 to $5,630, thereby increasing the total fixed
            payment-to-income (back) ratio from 55.50 to 56.63 percent. Further, Ameritrust
            officials did not provide adequate assurance that these funds were not used for the
            borrowers’ cash investment in the property.

Significant Credit-Related
Deficiencies

            Ameritrust officials did not properly evaluate the credit histories of three
            borrowers approved for FHA-insured loans. For example, regarding FHA case
            number 374-4979970, despite the borrowers’ four chargeoffs, four collection

                                              8
          accounts, and two judgments, Ameritrust officials did not provide a valid
          justification for approving the loan as required. The first borrower’s credit report,
          dated December 17, 2008, reflected two unsatisfied judgments filed by the
          landlord in February and November 2006. However, the supplemental credit
          report, dated December 31, 2008, reflected that one of the two judgments had
          been satisfied, the other had been removed, and the borrower had not been late on
          her rental payments during the period March 2004 through December 2008.
          Since the first borrower’s landlord had filed two judgments against her during the
          period when her rental payments were reportedly made on a timely basis, the
          information reflected on the two credit reports should have been reconciled.
          Moreover, the first borrower’s written explanation for the derogatory information
          on the credit report, “My bills got higher than what I expected,” was insufficient
          and demonstrated the borrower’s inability to manage debt.

Faxed Documentation

          In violation of requirements, Ameritrust officials used documents faxed from
          interested third parties, either unidentified or unknown sources, and other
          mortgage companies in the loan underwriting process for nine FHA-insured loans.
          Consequently, Ameritrust officials provided no assurance that these loan
          documents were not handled or transmitted by or through an interested party to
          the transaction. For instance, with regard to FHA case number 374-4894823, the
          loan file documented verifications of employment for both the borrower and
          coborrower that were faxed from the same unknown source. Consequently,
          Ameritrust officials did not provide assurance that the employment verifications
          passed directly between the employers and Ameritrust officials.


Skipped Mortgage Payments

          In one instance with respect to FHA case number 374-5048408, Ameritrust
          officials allowed the borrower to include three skipped conventional mortgage
          payments in the new FHA-insured mortgage of the cash-out refinance transaction.
          The borrower had two mortgages on the refinanced property. Within 12 months
          before the March 13, 2009, settlement date, the first mortgage had been more than
          30 and 60 days late on six occasions each and was not current for the month due,
          as the borrower had skipped three mortgage payments. Regarding the second
          mortgage, within the past 11 months, the borrower had been more than 30 days
          late on two occasions. Moreover, because the first mortgage had been more than
          30 days late on six occasions and was not current for the month due and the
          second mortgage had been more than 30 days late on two occasions, the borrower
          was not eligible for the cash-out refinance transaction. Consequently, Ameritrust
          officials should not have approved the loan and included the three skipped
          mortgage payments in the new mortgage amount.



                                            9
Inadequate Verification of
Occupancy

            Regarding one FHA-insured loan, FHA case number 374-5048408, Ameritrust
            officials did not adequately verify and document the borrower’s occupancy. This
            fact was particularly important since cash-out refinances are only permitted on
            owner-occupied principal residences owned by the borrower for at least 1 year.
            The credit report, dated March 9, 2009, indicated that the borrower resided in
            another State and had done so since March 2006. The borrower’s bank statements
            and the second mortgage loan statement contained in the loan file also reflected
            the borrower’s out-of-State address. However, Ameritrust officials documented
            letters from the borrower in which he stated that he had resided at the refinanced
            property since 2006 but had neglected to update his address. In addition, the
            borrower certified on the loan application that he occupied the refinanced
            property as his primary residence. Due to these inconsistencies, the borrower’s
            occupancy was questionable. As a result, Ameritrust officials did not provide
            adequate assurance that the borrower had occupied the refinanced property as a
            principal residence for at least 1 year before the loan closed on March 13, 2009.


Inconsistent Information Not
Reconciled

            Ameritrust officials processed three FHA-insured loans without reconciling
            discrepancies found in the loan file documentation. For example, with respect to
            FHA case number 374-5032000, Ameritrust officials documented the borrower’s
            rental verification, dated 2 days after the loan settlement, which reported that the
            borrower had a family size of three. Yet, documents in the loan file reported that
            the borrower had a family size of six, consisting of the borrower and five adopted
            children. Moreover, none of the adopted children was listed as a family member
            on the rental verification. Since Ameritrust officials included the adoption
            subsidy in the borrower’s calculation of monthly qualifying income, this
            discrepancy should have been reconciled.


Unallowable Fees Charged to
Borrowers

            In five instances, Ameritrust officials charged the borrowers approved for FHA-
            insured loans $3,843 in unallowable excessive loan discount and second appraisal
            fees without providing written justification. For example, with regard to FHA
            case number 374-5048408, the borrower was charged $1,543 in unallowable
            excessive loan discount fees. The borrower was charged a loan discount fee of
            2.5 percent, totaling $7,713. However, a review of the initial good faith estimate,
            dated March 13, 2009, revealed that the loan discount fee was 2 percent, or

                                             10
              $6,170. Since the initial and the final good faith estimate were completed on the
              same day and Ameritrust officials’ retail rate sheet for the period reflected a loan
              discount fee of 2 percentage points applicable to the borrower’s note rate, officials
              should not have charged an additional 0.5 percent fee.

              In another example, regarding FHA case number 374-5055205, the borrower was
              charged $550 for a second appraisal report, but Ameritrust officials did not
              document the need for a second appraisal in accordance with requirements.
              Neither of the two appraisal reports, dated January 8 and February 17, 2009,
              indicated that the property was in a declining market. In addition, Ameritrust
              officials did not document their determination that the property was located in an
              area in which the housing market was in decline.


Conclusion

              Ameritrust officials did not always comply with HUD-FHA requirements in the
              approval of FHA-insured loans. These deficiencies occurred because Ameritrust
              officials did not have adequate controls to ensure that the borrowers’ income,
              assets, liabilities, and credit history were verified and documented in compliance
              with requirements. As a result, 11 of the 20 loans reviewed exhibited material
              underwriting deficiencies, such as inadequate verification of income or
              employment, unsupported assets, underreported liabilities, and significant credit-
              related deficiencies. Thus, indemnification is warranted against future losses on
              10 loans with material underwriting deficiencies; the loss to HUD is estimated to
              be $2,742,810.4 Further, the FHA insurance fund incurred a loss of $183,327 for
              a claim and associated fees paid on one loan originated in violation of
              requirements. Lastly, borrowers were charged $3,843 in unallowable fees.

Recommendations

              We recommend that HUD’s Acting Deputy Assistant Secretary for Single Family
              Housing require Ameritrust officials to

              1A. Indemnify HUD against any future losses on the 10 loans with material
                  underwriting deficiencies. The projected loss is $2,742,810 based on
                  HUD’s loss rate of 59 percent of the unpaid principal balance of $4,648,830.

              1B. Reimburse HUD for the loss of $183,327 that resulted from the amount of
                  the claim and associated fees paid on one loan with material underwriting
                  deficiencies.


 4
  The potential loss to HUD is 59 percent of the unpaid principal balance of $4,648,830 for the 10 loans or
 $2,742,810 (see appendix C).


                                                     11
1C. Ensure that borrowers have been reimbursed $3,843 for unallowable
    excessive loan discount and second appraisal fees.




                              12
Finding 2: Ameritrust Officials Did Not Implement Their Quality
           Control Plan in Accordance With HUD-FHA Requirements

Ameritrust officials did not ensure that their quality control plan was implemented in accordance
with HUD-FHA requirements. The plan did not ensure that (1) all basic and specific HUD-FHA
requirements were included; (2) loans defaulting within the first 6 months were examined; (3)
quality control reviews were always conducted monthly; (4) written reverification of the
borrowers’ employment, deposits, gifts, and other sources of funds was obtained; (5)
management responses and planned corrective actions were adequately documented; and (6)
quality control files were adequately maintained. These deficiencies occurred because
Ameritrust officials had not developed procedures to ensure that their quality control plan was
properly implemented. Consequently, the quality control plan lacked effectiveness and provided
no assurance that deficiencies in the loan origination and underwriting processes were quickly
identified and appropriate corrective actions were taken to prevent recurrences.



 Quality Control Plans Missing
 Basic and Specific
 Requirements

               During the period November 1, 2008, through October 31, 2010, Ameritrust officials
               implemented two quality control plans: one developed and carried out by its in-
               house staff and the other by an outsourcing company. While the in-house plan
               described the staff’s responsibilities with regard to sample selection, resolution of
               deficiencies, record keeping, and other items, the outsourcing company’s plan
               described the policies and procedures the company used to carry out the quality
               control function on behalf of the lender. However, neither plan was in accordance
               with HUD-FHA requirements.

               The two quality control plans that Ameritrust officials implemented did not include
               all HUD-FHA-prescribed basic and specific requirements. The plans were missing
               the following requirements:

               (1)   A determination regarding the appropriate percentage of loans, originated and
                     purchased from loan correspondents, to review based on volume, past
                     experience, and other factors.

               (2)   Provisions requiring an occupancy reverification in cases in which the
                     occupancy of the subject property is suspect.

               (3)   A determination of whether verifications of employment, verifications of
                     deposit, or credit reports are suspect due to handling by an interested third
                     party or the borrower.


                                                 13
            (4)   A determination of whether the loan file contains sufficient and documented
                  compensating factors if the debt ratios exceed HUD-FHA limits.

            (5)   Provisions requiring the review of loans underwritten by an automated
                  underwriting system.

            (6)   Provisions requiring the lender to verify that applications receiving a refer
                  rating from an automated underwriting system are manually underwritten
                  before a final decision is made on the application.

            (7)   Provisions requiring the lender to verify that if manual downgrades or
                  overrides are applied, no patterns of illegal discrimination against borrowers
                  were revealed and that the downgrade or override was properly performed.

            Given the number of requirements missing from the quality control plans,
            Ameritrust officials provided no assurance that the loan origination and underwriting
            functions complied with their own and HUD-FHA requirements and that swift
            corrective action was taken to prevent the recurrence of identified problems. In
            September 2010, HUD’s Quality Assurance Division also cited the lender for not
            including all prescribed requirements in its quality control plan.

Loans Defaulting Within First 6
Months Not Reviewed


            While the in-house quality control plan stated that all payment defaults occurring
            within the first 12 months of origination would be selected for review, the
            outsourcing company’s plan provided for an analysis of all loans defaulting
            within the first 6 months. Nevertheless, Ameritrust officials did not routinely
            select for review all loans defaulting within the first 12 months or within 6 months
            as required by HUD Handbook 4060.1, REV-2, paragraph 7-6D. An outsourcing
            company official provided evidence that early payment default loans from the
            years 2008 and 2009 had been reviewed. However, she stated that such loans
            from the year 2010 had not been reviewed because an Ameritrust official did not
            provide the files. Moreover, an analysis of the loans reviewed disclosed that of
            the 16 early payment default loans originated during the audit period, November
            1, 2008, through October 31, 2010, only three such loans had been reviewed by
            the outsourcing company. As a result, officials deprived themselves of valuable
            information concerning the root cause of these early payment defaults, which
            might have led to swift and appropriate corrective actions, thus preventing the
            deficiencies from recurring.




                                              14
Quality Control Reviews Not
Always Conducted Monthly

            Quality control reviews were not always conducted monthly. The in-house
            quality control plan stipulated that reviews were to be performed quarterly.
            Accordingly, during the period November 2008 through March 2010, Ameritrust
            officials performed quarterly quality control reviews. However, since Ameritrust
            officials closed an average of 23 loans monthly, HUD Handbook 4060.1, REV-2,
            paragraph 7-6B, required them to conduct monthly rather than quarterly quality
            control reviews. By conducting monthly reviews, Ameritrust officials might have
            detected pervasive processing and underwriting deficiencies earlier and developed
            procedures to guard against their recurrence. Ameritrust officials began to
            perform monthly quality control reviews in April 2010. Nevertheless, their
            quality control plan had not been updated to reflect this change in practice.

Written Reverifications Not
Obtained

            Ameritrust officials did not ensure that written reverifications of the borrowers’
            employment, deposits, gifts, and other sources of funds were attempted in
            accordance with the requirements of HUD Handbook 4060.1, REV-2, paragraph
            7-6E2. The in-house quality control plan provided that the quality control
            reviewer or outsourcing company would send reverifications of employment,
            deposit, and source of funds on all loans. Further, the outsourcing company’s
            plan stated that certain underwriting documentation was reverified by mail or
            telephone and listed the following: employment, deposits, liability letters, rent or
            mortgage information, source of funds for downpayment, gift letters, tax returns,
            any alternative documentation, and closing costs and annual percentage rate.

            Nevertheless, an outsourcing company official stated that verbal rather than
            written reverifications were attempted. Moreover, the outsourcing company
            official did not provide documented evidence of the telephone reverifications
            conducted. Consequently, Amertitrust officials provided no assurance that the
            information used in the underwriting decision was accurate.

Management Responses and
Planned Corrective Action
Inadequately Documented

            Ameritrust officials did not provide evidence that prompt action was taken to
            address the material underwriting deficiencies noted in the outsourcing
            company’s quality control reports reviewed. Neither a final report nor an
            addendum to identify the actions being taken, the timetable for their completion,

                                             15
             and planned follow-up activities was documented in accordance with the
             requirements of HUD Handbook 4060.1, REV-2, paragraph 7-3I. This deficiency
             was attributed to an oversight on the part of Ameritrust officials since only one
             material underwriting deficiency was noted in the quality control reports
             reviewed.

Quality Control Files Not
Adequately Maintained


             Ameritrust officials did not adequately maintain the quality control files in
             compliance with HUD’s and their own requirements. HUD Handbook 4060.1,
             REV-2, paragraph 7-3K, requires officials to retain for a period of 2 years the
             quality control review report and follow-up, including review findings and actions
             taken, plus procedural information, such as the percentage of loans reviewed,
             basis for selecting loans, and who performed the review. Further, the in-house
             quality control plan provided that the quality control file, containing the loan
             sample list, final report, checklists, reverifications, responses, and detailed records
             of any corrective action recommended and implemented, would be retained in the
             corporate office for a minimum of 3 years. With the exception of the quality
             control review reports and responses to immaterial findings, neither Ameritrust
             officials nor the outsourcing company official maintained the required
             documentation to evidence that the quality control reviews were conducted in
             accordance with requirements. Moreover, an Ameritrust official stated that he
             was unaware that the outsourcing company did not maintain the quality control
             files.

Conclusion

             Ameritrust officials did not ensure that their quality control plan was implemented
             in accordance with HUD-FHA requirements. As a result, (1) all basic and
             specific HUD-FHA requirements were not included in the plan; (2) loans
             defaulting within the first 6 months were not reviewed; (3) quality control reviews
             were not always conducted monthly; (4) written reverification of the borrowers’
             employment, deposits, gifts, and other sources of funds was not attempted; (5)
             management responses and planned corrective action were not adequately
             documented; and (6) quality control files were not adequately maintained. These
             deficiencies occurred because Ameritrust officials had not developed procedures
             to ensure that their quality control plan was properly implemented. Consequently,
             the quality control plan lacked effectiveness; thus, Ameritrust officials could not
             provide assurance that their quality control process was capable of evaluating,
             monitoring, and improving the quality of loans originated.




                                               16
Recommendations

          We recommend that HUD’s Acting Deputy Assistant Secretary for Single Family
          Housing require Ameritrust officials to

          2A. Establish procedures to ensure that their quality control plan is implemented
              in accordance with HUD requirements, including but not limited to revising
              the plan to ensure that it includes all basic and specific requirements and
              ensuring that all required documentation supporting the performance of
              quality control reviews is retained in the quality control files.

          We also recommend that HUD’s Associate Deputy Assistant Secretary for Single
          Family Housing

          2B. Verify the lender’s implementation of corrective actions taken with regard
              to its quality control plan.

          2C. Due to the materiality of the quality control violations, several of which
              were previously cited during a HUD review, consider referring the lender to
              the Mortgagee Review Board for an assessment of civil money penalties.

          If the lender officially ceases operations, the above recommendations are not
          warranted.




                                          17
                         SCOPE AND METHODOLOGY

To accomplish our audit objectives, we reviewed the HUD case binders provided by the
Philadelphia Homeownership Center and the loan files provided by Ameritrust officials. In
addition, we reviewed Ameritrust officials’ quality control procedures to assess whether they
were adequate and properly implemented in accordance with HUD-FHA requirements.

We reviewed applicable laws, regulations, HUD handbooks, and mortgagee letters. We
interviewed Ameritrust’s management and key staff and an official of the quality control
contactor to obtain an understanding of the management and quality control policies and
procedures in place. We also analyzed HUD’s postendorsement technical reviews, quality
assurance reports, and independent audit reports.

We selected a nonstatistical sample of 22 loans originated by Ameritrust officials during the period
November 1, 2008, through October 31, 2010. The 22 loans, worth more than $10.6 million,
consisted of 15 defaulted loans, 4 current loans, and 3 terminated loans. Of the 22 loans, 14 were
electronically underwritten by the Fannie Mae’s (Federal National Mortgage Association’s)
Desktop Underwriter, and 8 were manually underwritten.

The original sample consisted of 20 loans, 15 defaulted loans, 3 current loans, and 2 terminated
loans. However, we added two loans (one terminated and one current) to our sample after survey
work revealed that Ameritrust officials streamline refinanced a loan less than 5 months after its
initial purchase and an Ameritrust official incorrectly stated that a loan had been indemnified.

We selected the 15 defaulted loans for review based on the following criteria: the loan (1)
defaulted after the borrowers had made six or fewer payments, (2) involved gift funds, or (3) had
not been indemnified by HUD. Of the 15 loans, 7 involved gifts ranging from $3,000 to
$250,000.

With the exception of the loans added to the sample after we completed our survey work, we
chose the three current and two terminated loans for review because they were manually
underwritten by different underwriters. After completion of the survey work, we selected the
third terminated loan for review since it predated the streamline refinance by less than 5 months.

While we did not review and assess the controls over computer-processed data for HUD’s
Neighborhood Watch System, we did use data obtained from the system for informational
purposes. We performed a minimal level of testing to ensure the integrity of the computer-
processed data relevant to our audit objectives and found the data to be sufficiently reliable. The
minimal level of testing consisted of tracing the loan amount, closing date, and front and back
ratios, among other items, to the source documentation.

We performed the audit fieldwork from February through May 2011 at Ameritrust’s main office
located at 1981 Marcus Ave, Lake Success, NY. We conducted the audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our

                                                 18
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.




                                              19
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objectives:

                      Loan origination process - Policies and procedures established by
                      management to ensure that FHA-insured loans are originated in accordance
                      with HUD-FHA requirements.

                      Quality control process - Policies and procedures established by
                      management to ensure that the quality control plan has been implemented
                      and related reviews are performed in accordance with HUD-FHA
                      requirements.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to the effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 20
Significant Deficiencies


             Based on our review, we believe that the following items are significant deficiencies:

                    Ameritrust officials did not ensure that FHA-insured loans were approved
                    in accordance with HUD-FHA requirements (see finding 1).

                    Ameritrust officials did not adequately implement a quality control plan
                    that ensured compliance with HUD-FHA requirements (see finding 2).




                                              21
                                     APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                 Recommendation            Ineligible 1/    Funds to be put
                        number                              to better use 2/
                                1A                              $2,742,810
                                1B            $183,327
                                1C               3,843
                                             ________           _________
                             Total            $187,170          $2,742,810


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if HUD implements our
     recommendations to indemnify the 10 loans exhibiting material underwriting
     deficiencies, it will reduce FHA’s risk of loss to the insurance fund. The amount above is
     based on HUD’s default loss rate of 59 percent of the total unpaid principal balance of
     $4,648,830 as April 30, 2011 (see appendix C).




                                             22
       number




       TOTALS
      FHA case




     374-5571175
     374-5512784
     374-5118521
     374-5059265
     374-5055205
     374-5048408
     374-5032000
     374-4979970
     374-4970551
     374-4964772
     374-4894823
                                                                                                                                 Appendix B



                                             Inadequate verification of income




     4
                 X
                         X
                         X
                         X
                                                     or employment




     3
         X
                         X
                                 X
                                                   Unsupported assets




     5
     X
     X
             X
                             X
                                     X
                                              Inadequate gift documentation

                                                Excessive ratio(s) without




     3
         X
                         X
                         X
                                              adequate compensating factors




     1
                                         X
                                                 Underreported liabilities




23
                                                 Significant credit-related




     3
         X
                         X
                         X
                                                        deficiencies




     9
         X
         X
         X
         X
         X
         X
         X
         X
         X


                                                  Faxed documentation




     1
                     X
                                               Skipped mortgage payments

                                                Inadequate verification of




     1
                     X

                                                      occupancy

                                               Inconsistent information not


     3
                         X
                         X
                         X




                                                   reconciled by lender

     5                                         Unallowable fees charged to
         X
                 X
                 X
                             X
                                     X
                                                                                 SUMMARY OF MATERIAL UNDERWRITING DEFICIENCIES




                                                      borrowers
Appendix C

  SCHEDULE OF ACTUAL AND POTENTIAL LOSSES TO THE
               FHA INSURANCE FUND


                                                                                                     Potential
                                                                                                       loss to
                                                                                                     HUD (59       Total of
                                           Number of                                                 percent of   actual and
                                            payments         Original      Unpaid      Actual          unpaid      potential
   FHA case                                before first       loan        principal    loss to       principal      loss to
    number            Closing date           default         amount        balance      HUD           balance)       HUD
  374-4894823           10/15/08                5             $417,449     $406,266              -    $239,697     $239,697
  374-4964772           12/19/08                3             $718,517     $695,591              -    $410,399     $410,399
  374-4970551           12/30/08                3             $454,265     $440,710              -    $260,019     $260,019
  374-4979970           01/07/09                4             $547,771     $532,050              -    $313,910     $313,910
  374-5032000           02/24/09                -             $616,655     $599,268              -    $353,568     $353,568
  374-5048408           03/13/09                6             $308,506     $299,583              -    $176,754     $176,754
  374-5055205           03/05/09                4             $613,679             -   $183,327               -    $183,327
  374-5059265           04/17/09                6             $654,761     $634,947              -   $374,618*    $374,618*
  374-5118521           03/09/09                2             $358,388     $348,696              -    $205,731     $205,731
  374-5512784           12/14/09                5             $328,652     $321,529              -    $189,702     $189,702
  374-5571175           01/29/10                1             $378,026     $370,190              -    $218,412     $218,412
                                                     Total   $5,396,669   $4,648,830   $183,327      $2,742,810   $2,926,137

* The immaterial $1 difference is due to rounding.




                                                             24
Appendix D

                        CASE SUMMARY NARRATIVES



 FHA case number: 374-4894823

 Loan amount: $417,449

 Loan purpose: Purchase

 Settlement date: October 15, 2008

 Status as April 30, 2011: Delinquent

 Payments before first default reported: Five

 Summary:

 We found material underwriting deficiencies relating to underreported liabilities and faxed
 documentation used in the loan underwriting process.

 Underreported Liabilities

 Ameritrust officials underreported the borrowers’ liabilities by excluding from the total monthly
 installment debt calculation a $113 payment due on a $5,018 line of credit reflected on the bank
 statement as of September 9, 2008. Officials excluded this liability because it was not reported
 on the borrowers’ credit report, dated October 1, 2008. While a handwritten notation on the
 credit report indicated the borrowers’ had a “new trade” and the loan application listed a $112
 monthly debt on a $4,500 an unpaid balance that was not reflected on the credit report,
 Ameritrust officials did not provide the account number of the “new trade” or evidence to
 demonstrate that the debt related to borrowers’ line of credit. Consequently, Ameritrust officials
 provided no assurance that they properly accounted for all the borrowers’ liabilities. Had
 Ameritrust officials included this liability in the borrowers’ debt calculation, the total monthly
 installment debt would have increased from $2,202 to $2,315, and the total fixed payment would
 have increased from $5,517 to $5,630, thereby increasing the total fixed payment-to-income
 (back) ratio from 55.50 to 56.63 percent. Further, officials did not provide adequate assurance
 that these funds were not used for the borrowers’ cash investment in the property.

 HUD-FHA Requirements:

 According to chapter 2 of the FHA TOTAL [Technology Open to Approved Lenders] Mortgage
 Scorecard User Guide, when a debt or obligation (other than a mortgage) is revealed during the

                                                 25
loan process that was not listed on the loan application or credit report and was not considered by
the automated underwriting system, the lender must verify the actual monthly payment amount,
include the monthly payment amount in the total monthly installment debt, and resubmit the loan
if the liability is greater than $100 per month. In addition, the lender should determine that any
funds borrowed were not or will not be used for the home buyer’s cash investment in the
transaction.

Faxed Employment or Income Documentation

Contrary to requirements, Ameritrust officials used in the loan underwriting process verifications
of employment for both the borrower and coborrower that were faxed from the same unknown
source. An Ameritrust official requested the borrower’s employment verification on September
10, 2008, and the employer’s response was dated September 17, 2008. However, the fax banners
indicated that the employment verification was faxed twice: from an unknown source on
September 17, 2008, and from an Ameritrust official on September 22, 2008. With regard to the
coborrower’s employment verification, the fax banner indicated that it was faxed on September
8, 2008, the same day it was requested. Nevertheless, the employer’s response was dated
September 9, 2008. As a result, Ameritrust officials provided no assurance that the employment
verifications passed directly between the employer and the lender without being handled or
transmitted by or through an interested third party to the transaction.

HUD-FHA Requirements:

According to chapter 2 of the FHA TOTAL Mortgage Scorecard User Guide, if income or
employment documents are faxed to the lender, the documents must clearly identify the
employer and source of information. The lender is accountable for determining the authenticity
of the document by examining, among other things, the information included at the top or banner
portion of the fax received by the lender. The document itself must also include a name and
telephone number of the individual with the employer who can verify the accuracy of the data.

HUD Handbook 4155.1, REV-5, paragraph 3-1, provides that the verification of employment
may be faxed if it clearly identifies the name of the borrower’s employer. Lenders may not
accept or use documents relating to the employment or income of borrowers that are handled by
or transmitted from or through interested third parties or by using their equipment.




                                                26
FHA case number: 374-4964772

Loan amount: $718,517

Loan purpose: Purchase

Settlement date: December 19, 2008

Status as April 30, 2011: First legal action to commence foreclosure

Payments before first default reported: Three

Summary:

We found material underwriting deficiencies relating to gift documentation, faxed
documentation used in the loan underwriting process, and fees charged.

Inadequate Gift Documentation

Ameritrust officials did not adequately document the source of a $10,000 gift used as part of the
borrowers’ $20,000 earnest money deposit. The loan file documented a copy of a gift affidavit
from the borrowers’ daughter-in-law, indicating that the gift funds were transferred on October
28, 2008; an official check made payable to the seller’s attorney on the same day; and a copy of
the gift donor certificate of deposit, showing the donor’s ability to provide the gift. While the
$10,000 certificate of deposit was opened on August 19, 2008, it was due to mature on
November 19, 2008. Nevertheless, Ameritrust officials did not document evidence of the early
withdrawal of the certificate of deposit or a copy of the canceled check as required. As a result,
officials did not provide assurance that the gift funds came from the donor’s personal account
and ultimately did not come from an unacceptable source.

HUD-FHA Requirements:

HUD Handbook 4155.1, REV-5, paragraph 2-10C, requires the lender to obtain a withdrawal
document or canceled check for the amount of the gift, showing that the funds came from the
donor’s personal account, when the donor purchases an official check as a means of transferring
gift funds.

Faxed Asset and Employment or Income Documentation

Contrary to requirements, Ameritrust officials used in the loan underwriting process asset and
employment or income documents faxed from an interested third party, an unidentified source,
and another mortgage company. Ameritrust officials underwrote the loan using bank account
histories and a bank statement as of November 12, 2008, faxed from the seller; three
employment verification letters initially faxed from the coborrower’s employers and then two of
the three faxed from an unidentified source and the third from another mortgage company; and
12 coborrower pay stubs faxed from another mortgage company or an unidentified source.

                                                27
Consequently, Ameritrust officials did not provide assurance that these documents passed
directly between the provider and the lender without being handled or transmitted by or through
an interested third party to the transaction.

HUD-FHA Requirements:

According to chapter 2 of the FHA TOTAL Mortgage Scorecard User Guide, if income or
employment, asset, or other documents are faxed to the lender, the documents must clearly identify
the employer, depository or investment firm’s name, and source of information. The lender is
accountable for determining the authenticity of the document by examining, among other things, the
information included at the top or banner portion of the fax received by the lender. The document
itself must also include a name and telephone number of the individual with the employer or
financial institution who can verify the accuracy of the data.

HUD Handbook 4155.1, REV-5, paragraph 3-1, provides that no document used in the
processing or underwriting of a loan may be handled or transmitted by or through an interested
third party to the transaction. In addition, HUD Handbook 4060.1, REV-2, paragraph 2-18,
states that lenders may not perform only a part of the loan origination process, such as taking the
loan application, and routinely transfer the underwriting package to another lender.

Unallowable Fees Charged to Borrowers

Ameritrust officials charged the borrower a $650 fee that was prohibited by HUD. They charged
the borrower $650 for a second appraisal report but did not document the need for a second
appraisal in accordance with requirements. Neither of the two appraisal reports, dated October
29, 2008, indicated that the property was in a declining market. In addition, Ameritrust officials
did not document their determination that the property was located in an area in which the
housing market was in decline.

HUD-FHA Requirements:

Mortgagee Letter 2008-09 requires two appraisals if the loan amount, excluding the upfront
mortgage insurance premium, exceeds $417,000; the loan-to-value ratio, excluding any financed
upfront mortgage insurance premium, equals or exceeds 95 percent; and the property is
determined to be in a declining market.




                                                28
FHA case number: 374-4970551

Loan amount: $454,265

Loan purpose: Purchase

Settlement date: December 30, 2008

Status as April 30, 2011: First legal action to commence foreclosure

Payments before first default reported: Three

Summary:

We found material underwriting deficiencies relating to faxed documentation used in the loan
underwriting process, employment, inconsistencies not reconciled by Ameritrust officials, and
assets.

Faxed Asset and Employment or Income Documentation

Contrary to requirements, Ameritrust officials used in the loan underwriting process asset and
employment or income documents faxed from either unidentified or unknown sources.
Ameritrust officials underwrote the loan using the following documents faxed from unidentified
sources: a pay stub for the pay period November 8 through November 14, 2008, relating to the
second borrower’s first job; a letter of explanation concerning the borrower’s two jobs; an
employment verification letter from the borrower’s second employer, dated November 8, 2008;
and a lease agreement. Faxed from unknown sources were eight bank statements, three
belonging to the first borrower and five to the second borrower. Further, the second borrower’s
bank statements had been faxed twice from both unidentified and unknown sources.
Consequently, Ameritrust officials did not provide adequate assurance that these documents
passed directly between the provider and the lender without being handled or transmitted by or
through an interested third party to the transaction.

HUD-FHA Requirements:

According to chapter 2 of the FHA TOTAL Mortgage Scorecard User Guide, if income or
employment, asset, or other documents are faxed to the lender, the documents must clearly identify
the employer, depository or investment firm’s name, and source of information. The lender is
accountable for determining the authenticity of the document by examining, among other things, the
information included at the top or banner portion of the fax received by the lender. The document
itself must also include a name and telephone number of the individual with the employer or
financial institution who can verify the accuracy of the data.

HUD Handbook 4155.1, REV-5, paragraph 3-1, provides that no document used in the
processing or underwriting of a loan may be handled or transmitted by or through an interested
third party to the transaction. The verification of employment may be faxed if it clearly
identifies the name of the borrower’s employer. Lenders may not accept or use documents

                                                29
relating to the employment or income of borrowers that are handled by or transmitted from or
through interested third parties or by using their equipment.

Inadequate Verification of Employment
Inconsistent Information Not Reconciled by Lender

Ameritrust officials did not adequately verify and document the second borrower’s employment.
The second borrower had two jobs. With respect to the first job, officials documented six
weekly earnings statements, the IRS Forms W-2 for 2006 and 2007, and a telephone contact
certification. Regarding the six weekly earnings statements covering 2 weeks in September
2008, 1 week in October 2008, 1 week in November 2008, and 2 weeks in December 2008, the
actual payday varied from week to week, and the pay dates fell either on or before the end of the
pay period. For example, for the pay period ending September 12, 2008, the pay date was
September 11, 2008, a Thursday; yet, for the pay period ending October 24, 2008, the pay date
was October 21, 2008, a Tuesday. For pay periods ending December 19 and December 26,
2008, the earnings statements reflected inconsistencies with regard to the year-to-date gross pay,
taxes, and deductions. Further, the employer miscalculated the Social Security and Medicare
deductions reported on all of the earnings statements. While the deductions reported on the
Forms W-2 for 2006 and 2007 were correct, the employer misspelled the second borrower’s last
name.

Regarding the second borrower’s second job, Ameritrust officials obtained an employment
verification letter stating that the borrower had been employed since January 2008, or nearly 1
year, at the settlement date and the borrower’s probability of continued employment was “very
good.” Nevertheless, as previously indicated, since the employment verification letter was faxed
from an unidentified source, officials did not provide adequate assurance that it came directly
from the employer without being handled by an interested third party to the transaction

In a letter faxed from an unidentified source on March 23, 2007, the second borrower stated that
he worked at his second job on Wednesdays from 5:00 to 7:00 p.m., Fridays from 7:00 a.m. to
7:00 p.m., Saturdays from 7:00 a.m. to 7:00 p.m., and Sundays from 7:00 a.m. to 7:00 p.m., for a
total of 38 hours per week. Yet, the three earnings statements reflected that he worked a total of
40 hours per week. Additionally, he stated that he worked at his first job Monday through Friday
from 8:00 a.m. to 4:00 p.m. However, the hours he purportedly worked on Fridays overlapped,
since he asserted that he worked from 8:00 a.m. to 4:00 p.m. at his first job and 7:00 a.m. to 7:00
p.m. at his second job. The earnings statements for both jobs also reported different marital
statuses. The first job’s earnings statements reported that the borrower was married, whereas the
second job’s earnings statements reported that he was single. Given these unresolved
inconsistencies, Ameritrust officials did not adequately verify and document the second
borrower’s employment.

HUD-FHA Requirements:

Mortgagee Letter 92-5 prohibits the lender from processing loans without reconciling
discrepancies in the file documentation.



                                                30
Unsupported Assets

Ameritrust officials did not adequately verify and document the borrowers’ assets. A review of
the borrowers’ bank statements disclosed $9,680 in unexplained deposits during the period
September 8 through October 6, 2008. Of that amount, $4,780 pertained to the first, and $4,900
pertained to the second borrower. Further, there was no indication that the following were
payroll deposits.

                     Date                       Amount                Bank statement

              September 22, 2008                 $1,000                First borrower
              September 25, 2008                 $1,780                First borrower
              September 29, 2008                 $2,000                First borrower
        First borrower total                     $4,780

             September 8, 2009                   $1,900              Second borrower
              October 6, 2008                    $3,000              Second borrower
        Second borrower total                    $4,900
                Grand total                      $9,680

Before the $1,000 unexplained deposit on September 22, 2008, the first borrower had an account
balance of $504. The first borrower issued a $1,000 earnest money deposit check to the seller’s
attorney on September 20, 2008, and receipt of the check was acknowledged on September 25,
2008. However, since the check was cashed on October 1, 2008, a portion of the first borrower’s
unexplained deposits was used for the earnest money deposit. While a handwritten notation,
“See explanation,” appeared next to the deposits recorded on the second borrower’s bank
statements, Ameritrust officials documented neither the second nor the first borrower’s
explanation as to the source of these large deposits, which totaled more than 2 percent of the
property’s sales price ($9,680 (unexplained deposits) divided by $470,000 (sales price) equals
2.06 percent). Without the borrowers’ explanations, Ameritrust officials did not properly verify
and document the borrowers’ assets.

HUD-FHA Requirements:

According to chapter 2 of the FHA TOTAL Mortgage Scorecard User Guide, the lender must
obtain an explanation and documentation for recent large deposits in excess of 2 percent of the
property’s sales price. The lender must also determine that any recent debts were not incurred to
obtain part or all of the required cash investment on the property being purchased.




                                                 31
FHA case number: 374-4979970

Loan amount: $547,771

Loan purpose: Purchase

Settlement date: January 7, 2009

Status as April 30, 2011: Ineligible for loss mitigation

Payments before first default reported: Four

Summary:

We found material underwriting deficiencies relating to income, gift documentation, credit
history, inconsistencies not reconciled by Ameritrust officials, fees charged, faxed
documentation used in the loan underwriting process, and qualifying ratios.

Incorrect Calculation of Income Resulting in Understated Qualifying Ratios
Excessive Debt-to-Income Ratio Without Valid Compensating Factors

Ameritrust officials incorrectly calculated the borrowers’ total monthly income, thereby
understating the qualifying ratios. Officials calculated the borrowers’ monthly income by
including $1,732 in the calculation of overtime and other income without properly verifying and
documenting that such income had been received for the past 2 years and was likely to continue.
Officials did not obtain written verifications of employment or other documentation
substantiating an earnings trend for overtime and other income. Therefore, they were required to
but did not obtain the borrowers’ original pay stubs covering the most recent 30-day period. The
loan file documented five nonconsecutive biweekly pay stubs for the first borrower with the
following pay end dates: July 30, 2008, August 27, 2008, October 8, 2008, October 22, 2008,
and December 17, 2008, and seven nonconsecutive weekly pay stubs for the second borrower
with the following pay period ending dates: August 19, 2008, August 26, 2008, September 9,
2008, September 16, 2008, November 4, 2008, November 11, 2008, and December 16, 2008.
While the loan file contained verbal verifications of employment disclosing that the borrowers
had been employed since February 26, 1998, and August 8, 2006, respectively, they did not
contain information related to the borrowers’ overtime and other income. Ameritrust officials
also documented the 2006 and 2007 IRS Forms W-2 for both borrowers; however, based on the
total wages reported, the borrowers had not received overtime and other income throughout the
2-year period. For example, in 2008, the first borrower had an annual base salary of $41,172;
yet, in 2006 and 2007, the borrower earned $30,633 and $43,150, respectively. Similarly, in
2008, the second borrower had an annual base salary of $34,780 but earned only $7,406 and
$23,259 in 2006 and 2007, respectively.

Ameritrust officials calculated the first borrower’s overtime and other income of $1,409 by
dividing $16,902 in year-to-date earnings for preshift briefings, overtime meals, and overtime
reflected on the pay stub for the pay period ending October 22, 2008, by 12 months. Regarding

                                                32
the second borrower, Ameritrust officials calculated overtime and other income of $323 by
dividing $3,879 in year-to-date double earnings and job safety income reflected on the pay stub
for the pay period ending December 16, 2008, by 12 months. While Ameritrust officials
documented approximately 10 and 12 months of overtime and other income received by the first
and second borrower, respectively, they did not provide a written justification for using such
income for qualifying purposes for a period of less than 2 years.

As a result of our recalculation of the borrowers’ total monthly income, which excluded overtime
and other income, the qualifying ratios increased. Specifically, the borrowers’ mortgage
payment-to-income (front) ratio, which had already exceeded HUD’s benchmark guideline of 31
percent without a valid compensating factor, increased from 41.93 to 51.12 percent, and the total
fixed payment-to-income (back) ratio increased from 43.49 to 53.02 percent. Because both
recalculated ratios exceeded HUD’s benchmark guidelines of 31 and 43 percent, respectively, the
loan would require significant compensating factors to justify its approval. The following
compensating factors were recorded in the underwriter comments section of the FHA loan
underwriting and transmittal summary: “FICO: 582, 598; FHA County Limit: 934,200
Purchase; First Time Homebuyer; Borrower has been on her job for more than 10 years;
Excellent Job Stability; Second borrower has been on his job for over two years; Overtime
income used for both borrowers were annualized; Mother will be moving into the subject
property also and will help contribute to the monthly expenses.” However, these are not valid
compensating factors as defined by HUD Handbook 4155.1, REV-5, paragraph 2-13.

The first three underwriter comments listed are not HUD-prescribed compensating factors.
While the first borrower’s 10 years on the job illustrated job stability, Ameritrust officials did not
document the borrower’s potential for increased earnings. Improperly documented overtime
income was already considered in the borrowers’ qualifying income, and although the mother’s
moving into the subject property demonstrated that additional income could be used to meet the
housing expenses, she was not a party to the transaction. Additionally, the borrowers would
experience “payment shock” since the proposed monthly mortgage payment of $4,039 was more
than 400 percent greater than the previous monthly housing payment of $971. Therefore, the
absence of documented significant compensating factors greatly increased this loan’s risk to the
FHA insurance fund.

HUD-FHA Requirements:

HUD Handbook 4155.1, REV-5, paragraph 2-7A, states that overtime income may be used to
qualify if the borrower has received such income for the past 2 years, it is likely to continue, and
the employment verification does not state that such income is unlikely to continue.

Additionally, the lender must develop an average of overtime income for the past 2 years;
periods of less than 2 years can be used if the lender justifies and documents the reason for using
the income for qualifying purposes. Further, paragraph 3-1E states that as an alternative to
obtaining a verification of employment, the lender may obtain the borrower’s original pay stub(s)
covering the most recent 30-day period, along with original IRS Forms W-2 from the previous 2
years, and the lender must verify by telephone all current employers.



                                                 33
Mortgagee Letter 2005-16 states that the qualifying ratios are 31 and 43 percent. If either or both
ratios are exceeded, the lender must describe the compensating factors used to justify the
mortgage approval.

HUD Handbook 4155.1, REV-5, paragraph 2-13, requires ratios exceeding HUD’s benchmark
guidelines to be accompanied by significant compensating factors, documented on the mortgage
credit analysis worksheet, to justify the approval of the mortgage loan and supported by
documentation.

Inadequate Gift Fund Documentation

Ameritrust officials did not adequately document the source of two gifts in the amount of
$10,000 and $3,500, totaling $13,500. The loan file contained a gift letter for a $10,000 gift to
the borrowers, a copy of a canceled check made payable to the seller’s attorney on October 3,
2008, and a copy of the donor’s bank statement reflecting the withdrawal of the gift funds.
However, the donor’s bank statement disclosed a $2,000 ATM deposit on September 25, 2008,
and two telephone transfers on September 29 and October 1, 2008, in the amount of $5,000 each.
Further, the loan file documented a copy of a $2,000 canceled check the first borrower issued to
the gift donor on the same day as the ATM deposit. Before the September 25, 2008, ATM
deposit, the gift donor had an account balance of $1,358. Consequently, without additional
evidence concerning the $10,000 in telephone transfers, Ameritrust officials did not provide
adequate assurance that these funds were from the donor’s personal account and ultimately did
not also come from an unacceptable source, namely a party to the transaction.

Regarding the $3,500 gift, the loan file contained a gift letter, dated December 26, 2008; a copy
of a cashier’s check made payable to the seller; a bank receipt reflecting an available balance of
$24,229 as of December 26, 2008; and a copy of the donor’s transaction history reflecting a
balance of $26,925 as of December 24, 2008. However, Ameritrust officials did not document
the withdrawal document or the canceled check as required to demonstrate that the funds came
from the donor’s personal account. Further, the difference between the $26,925 transaction
history balance as of December 24, 2008, and the receipt reflecting an available balance of
$24,229 as of December 26, 2008, was $2,696, which did not support the $3,500 withdrawal for
the transfer of the gift.

HUD-FHA Requirements:

HUD Handbook 4155.1, REV-5, paragraph 2-10C, requires the lender to obtain a withdrawal
document or canceled check for the amount of the gift, showing that the funds came from the
donor’s personal account, when the donor purchases an official or cashier’s check as a means of
transferring gift funds. If the donor borrowed the gift funds and cannot provide documentation
from the bank or other savings account, the lender must obtain written evidence from the donor
that those funds were borrowed from an acceptable source, not from a party to the transaction.




                                                34
Significant Credit-Related Deficiencies
Inconsistent Information Not Reconciled by Lender

Despite the borrowers’ four chargeoffs, four collections, and two judgments, Ameritrust officials
did not provide a valid justification for approving the loan as required. The first borrower’s
credit report, dated December 17, 2008, reflected two unsatisfied judgments filed by the
borrower’s landlord in February and November 2006. However, the supplemental credit report,
dated December 31, 2008, reflected that one of the two judgments had been satisfied, the other
had been removed, and the borrower had not been late on her rental payments during the period
March 2004 through December 2008. Given the discrepancy with regard to the first borrower’s
rental payment history, Ameritrust officials should have reconciled the information reflected on
the two credit reports. Further, Ameritrust officials obtained the first borrower’s written
explanation for the derogatory information shown on the credit report, which read, “My bills got
higher than what I expected.” However, the explanation was insufficient because it
demonstrated the borrower’s inability to manage debt. Since the borrowers had major
indications of derogatory credit, Ameritrust officials should have but did not provide a valid
written justification for approving the loan as indicated in the above “Incorrect Calculation of
Income Resulting in Understated Qualifying Ratios” section.

HUD-FHA Requirements:

HUD Handbook 4155.1, REV-5, paragraph 2-3, states that if the credit history, despite adequate
income to support obligations, reflects continuous slow payments, judgments, and delinquent
accounts, strong compensating factors will be necessary to approve the loan. Major indications
of derogatory credit, including judgments, collections, and other recent credit problems, require
sufficient written explanation from the borrower. The borrower’s explanation must make sense
and be consistent with other credit information in the file. Further, paragraph 2-3A states that the
payment history of the borrower’s housing obligations holds significant importance in evaluating
credit. The lender must determine the borrower’s payment history of housing obligation through
either the credit report or verification of rent directly from the landlord (with no identity of
interest with the borrower). Paragraph 2-4A2, requires lenders to document in writing an
analysis of the reasons for any discrepancies between the credit reports.

Unallowable Fees Charged to Borrowers

Ameritrust officials charged the borrower a $650 fee that was prohibited by HUD. They charged
the borrower $650 for a second appraisal report but did not document the need for a second
appraisal in accordance with requirements. Neither of the two appraisal reports, dated November
12 and November 15, 2008, indicated that the property was in a declining market. In addition,
Ameritrust officials did not document their determination that the property was located in an area
in which the housing market was in decline.

HUD-FHA Requirements:

Mortgagee Letter 2008-09 requires two appraisals if the loan amount, excluding the upfront
mortgage insurance premium, exceeds $417,000; the loan-to-value ratio, excluding any financed

                                                35
upfront mortgage insurance premium, equals or exceeds 95 percent; and the property is
determined to be in a declining market

Faxed Asset and Income Documentation

Contrary to requirements, Ameritrust officials used in the loan underwriting process asset and
income documents faxed from unidentified and unknown sources. Officials processed and
underwrote the loan using the following documents faxed from unidentified sources: the gift
donor’s canceled check, dated October 3, 2008; bank statements showing the withdrawal of gift
funds from the donor’s account; and the second borrower’s pay stub, dated December 16, 2008.
Further, the gift donor’s bank statements had been faxed twice from both unidentified and
unknown sources. Consequently, Ameritrust officials did not provide adequate assurance that
these faxed documents passed directly between the provider and the lender without being
handled or transmitted by or through an interested third party to the transaction.

HUD-FHA Requirements:

HUD Handbook 4155.1, REV-5, paragraph 3-1, provides that no document used in the
processing or underwriting of a loan may be handled or transmitted by or through an interested
third party to the transaction. Lenders may not accept or use documents relating to the
employment or income of borrowers that are handled by or transmitted from or through
interested third parties or by using their equipment.




                                               36
FHA case number: 374-5032000

Loan amount: $616,655

Loan purpose: Purchase

Settlement date: February 24, 2009

Status as April 30, 2011: Current

Payments before first default reported: N/A

Summary:

We found material underwriting deficiencies relating to assets, inconsistencies not reconciled by
Ameritrust officials, faxed documentation used in the loan underwriting process, income,
qualifying ratios, and credit history.

Unsupported Assets
Inconsistent Information Not Reconciled by Lender
Faxed Asset Documentation

Ameritrust officials did not adequately verify and document the borrower’s assets. Specifically,
officials did not obtain a credible explanation for the unexplained deposits, did not reconcile
inconsistencies found in the loan file documentation, and used faxed documentation in the loan
underwriting process. A review of the borrower’s bank statements and bank receipts disclosed
three large unexplained deposits, totaling $11,665. The bank statement reflected a deposit in the
amount of $5,818 into the borrower’s savings account on October 1, 2008. A handwritten
notation on the bank statement indicated that the source of the funds was “ACS income” and as
support for the deposit, Ameritrust officials documented a check stub, dated October 1, 2008.
However, the check stub reflected $5,716, which did not correspond with the deposit amount.
Since the difference of $102 was not properly explained, Ameritrust officials did not provide a
credible explanation for the source of the funds.

The bank statement reflected an additional unexplained deposit on December 2, 2008, in the
amount of $2,500. Further, a bank deposit verification letter, dated February 24, 2009, reported
that the borrower had a checking account balance of $5,424. However, within the previous 2-
week period, the account balance had increased $3,347, and the increase was not attributable to
the borrower’s payroll or adoption income. As a result, Ameritrust officials should have
documented a credible explanation for the increase.

While the borrower needed $14,600 to close, Ameritrust officials documented $14,699 in
available assets. Yet, we verified two available asset balances, $12,620 and $15,845. We
verified $12,620 based on the account balances reflected on the borrower’s bank statements and
account histories as follows:



                                               37
                       Date                    Account                  Amount
               January 31, 2009         Credit union                              $21
               February 10, 2009        Checking                               $2,077
               February 20, 2009        Savings                               $10,522
                                                           Total              $12,620

Regarding the $15,845 available asset balance, we verified that the borrower had a credit union
account balance of $21, and the bank deposit verification letter reported that the borrower had a
combined bank balance of $15,824, representing $10,400 and $5,424 in the savings and checking
accounts, respectively. However, the deposit verification letter did not reference specific savings
and checking account numbers.

In addition, Ameritrust officials did not reconcile discrepancies found in the loan file
documentation before approving the loan. Officials documented the borrower’s retirement
account summary as of December 31, 2008, which reported a retirement savings balance of
$1,913. Yet, documentation in the file revealed that the borrower obtained an $11,300 loan from
an additional retirement account on February 6, 2009. A handwritten notation on the retirement
loan documentation revealed that the $11,300 in loan proceeds, along with a check in the amount
of $553, was deposited into the borrower’s savings account, and an account transaction history
reflected the $11,853 deposit on February 9, 2009. However, other than the retirement loan
documentation, Ameritrust officials provided neither evidence of the borrower’s additional
retirement account nor a copy of the loan proceeds check. Since a portion of the loan proceeds
was used for closing, officials should have reconciled the discrepancies found in the loan file
documentation.

Ameritrust officials used in the loan underwriting process asset documents faxed from unknown
sources. Account transaction histories, dated December 9, 2008, January 9, 2009, and February
10, 2009, were all faxed from the same unknown source on February 23, 2009. As a result,
Ameritrust officials did not provide adequate assurance that these faxed documents passed
directly between the provider and the lender without being handled or transmitted by or through
an interested third party to the transaction.

Based on the facts above, Ameritrust officials did not adequately verify and document the
borrower’s assets needed for closing because they did not obtain a credible explanation for the
unexplained deposits and reconcile inconsistencies found in the loan file documentation and used
in the loan underwriting process documents faxed from unidentified sources.

HUD-FHA Requirements:

HUD Handbook 4155.1, REV-5, paragraph 2-10, states that all funds for the borrower’s
investment in the property must be verified and documented. Further, paragraph 2-10B states
that if there is a large increase in an account, the lender must obtain a credible explanation of the
source of those funds. Paragraph 3-1 provides that no document used in the processing or
underwriting of a loan may be handled or transmitted by or through an interested third party to
the transaction.


                                                 38
Mortgagee Letter 92-5 prohibits the lender from processing loans without reconciling
discrepancies in the file documentation.

Incorrect Calculation of Income Resulting in Understated Qualifying Ratios
Inconsistent Information Not Reconciled by Lender
Excessive Debt-to-Income Ratios Without Valid Compensating Factors

Ameritrust officials incorrectly calculated the borrowers’ total monthly income, thereby
understating the qualifying ratios. Officials calculated the borrowers’ monthly base income as
$2,736 by dividing the current rate of pay of $32,839, reported on employment earnings
verification, by 12 months. Although the earnings verification was completed on February 19,
2009, the employer signed and dated it February 19, 2007, and according to the fax banner, it
was faxed from the employer before its completion on February 15, 2009. Nevertheless,
Ameritrust officials did not reconcile these inconsistencies. Moreover, based on the nine pay
stubs documented in the loan file, the borrower earned $2,624 per month. The calculation of the
borrower’s monthly base pay is as follows:

         Pay type           Biweekly pay x pay       Total yearly        Monthly total
                             periods per year            pay           (total/12 months)
   Base income                      $1,180 x 26           $30,680                   $2,557
   Pensionable longevity
   increment                             $31 x 26            $806                         $67
                   Total              $1,211 x 26         $31,486                      $2,624

Officials should have reconciled the $112 difference between the borrower’s monthly base
income, calculated using the employment earnings verification ($2,736), and the nine
documented pay stubs ($2,624). This difference in base income resulted in an increase in the
borrower’s qualifying ratios, which already exceeded HUD’s benchmark guidelines of 31 and 43
percent, without a valid compensating factor. Specifically, the mortgage payment-to-income
(front) ratio increased from 41.91 to 42.38 percent, and total fixed payment-to-income (back)
ratio increased from 45.73 to 46.24 percent. Since both recalculated ratios exceeded HUD’s
benchmark guidelines, compensating factors would have been needed to justify the loan’s
approval. The following compensating factors were recorded in the underwriter comments
section of the FHA loan underwriting and transmittal summary: “FICO: 600; FHA Purchase;
3.5% Downpayment; Borrower has stable employment with savings plan; Borrower receives
adoptive income; minimal monthly debt; prior derogatory due to extenuating circumstances.”
Nevertheless, these are not valid compensating factors as defined by HUD Handbook 4155.1,
REV-5, paragraph 2-13. The first three underwriter comments listed are not HUD-prescribed
compensating factors. While the underwriter commented that the borrower had stable
employment with a savings plan, Ameritrust officials documented neither the borrower’s
potential for increased earnings nor the saving plan. Moreover, since the adoption subsidy was
already considered in the borrower’s qualifying income, it could not be used as a compensating
factor. Minimal monthly debt, by itself, is not a valid compensating factor unless it is
accompanied by the borrower’s demonstrated ability to accumulate savings, which officials did
not document in this case. Ameritrust officials also did not document the extenuating
circumstances contributing to the borrower’s past derogatory credit history.

                                              39
In addition, Ameritrust officials should have but did not reconcile the following inconsistencies
between the total wages reported on the employment and earnings verification and the IRS
Forms W-2 for the years 2007 and 2008:

             Year           Total income per         Total income per     Difference
                          earnings verification          IRS W-2
              2007              $30,197                   $29,396             $801
              2008              $30,975                   $30,125             $850

Based on the facts above, the integrity of the information reflected on the employment earnings
verification was questionable. Consequently, Ameritrust officials should not have relied on this
verification to calculate the borrower’s monthly base income.

HUD-FHA Requirements:

HUD Handbook 4155.1, REV-5, states that lenders are expected to exercise both sound
judgment and due diligence in the underwriting of loans to be insured by FHA. Further,
paragraph 3-1L states that explanatory statements or additional documentation necessary to make
a sound underwriting decision are to be included in the case binder.

Mortgagee Letter 92-5 prohibits the lender from processing loans without reconciling
discrepancies in the file documentation.

Mortgagee Letter 2005-16 states that the qualifying ratios are 31 and 43 percent. If either or both
ratios are exceeded, the lender must describe the compensating factors used to justify the
mortgage approval.

HUD Handbook 4155.1, REV-5, paragraph 2-13, requires ratios exceeding HUD’s benchmark
guidelines to be accompanied by significant compensating factors, documented on the mortgage
credit analysis worksheet, to justify the approval of the mortgage loan and supported by
documentation.

Significant Credit-Related Deficiencies
Inconsistent Information Not Reconciled by Lender
Faxed Documentation

Despite the borrower’s six collection accounts and a late payment on an auto loan, the latter
occurring within the past 2 years, Ameritrust officials did not provide a valid justification for
approving the loan as required. Ameritrust officials obtained the borrower’s written explanation
for the major indications of derogatory credit reflected on the credit report. However, the
explanation addressed only five of the six collection accounts. Further, other than the
explanation obtained for the three medical collections, Ameritrust officials did not document a
sufficient explanation regarding the three remaining accounts. The borrower’s explanation
merely stated that one of the two accounts had been paid and the other was being paid off. Since
the borrower had major indications of derogatory credit, Ameritrust officials should have but did

                                                40
not provide a valid written justification for approving the loan as indicated in the above
“Incorrect Calculation of Income Resulting in Understated Qualifying Ratios” section.

In addition, Ameritrust officials did not properly verify and document the borrower’s rental
payment history. They documented the borrower’s rental verification, dated February 26, 2009,
2 days after the settlement date of February 24, 2009, which reported the borrower’s address,
monthly rent, family size, and other information. A handwritten notation on the verification
stated, “Tenant paid her rent from 2007 to 2008, and also 2009.” Nevertheless, according to the
fax banner, the verification did not come directly from the landlord. It appeared to have been
faxed from the borrower’s employer. Moreover, the verification reported that the borrower had a
family size of three. Yet, documents in the loan file reflected that the borrower had a family size
of six, consisting of herself and five adopted children; however, none of the children was listed
as a family member on the rental verification. The resolution of this inconsistency was
particularly important since Ameritrust officials included the adoption subsidy in the borrower’s
monthly qualifying income calculation. Consequently, since the rental verification was dated
after the settlement date, was not faxed directly from the landlord, and contained inconsistencies,
officials did not properly verify and document the borrower’s rental payment history.

HUD-FHA Requirements:

HUD Handbook 4155.1, REV-5, paragraph 2-3A, states that the payment history of the
borrower’s housing obligations holds significant importance in evaluating credit. The lender
must determine the borrower’s payment history of housing obligations through either the credit
report, verification of rent directly from the landlord (with no identity of interest with the
borrower) or verification of mortgage directly from the mortgage servicer, or canceled checks
covering the most recent 12-month period. Further, paragraph 2-3C states that FHA does not
require collection accounts to be paid off as a condition of mortgage approval. Collections and
judgments indicate a borrower’s regard for credit obligations and must be considered in the
analysis of creditworthiness, with the lender documenting its reason for approving a mortgage
when the borrower has collection accounts or judgments. Paragraph 3-1 provides that no
document used in the processing or underwriting of a loan may be handled or transmitted by or
through an interested third party to the transaction.

Mortgagee Letter 92-5 prohibits the lender from processing loans without reconciling
discrepancies in the file documentation.




                                                41
FHA case number: 374-5048408

Loan amount: $308,506

Loan purpose: Refinance

Settlement date: March 13, 2009

Status as April 30, 2011: Modification started

Payments before first default reported: Six

Summary:

We found material underwriting deficiencies relating to skipped mortgage payments, occupancy,
fees charged, and faxed documentation used in the loan underwriting process.

Skipped Mortgage Payments

Ameritrust officials allowed the borrower to include three skipped conventional mortgage
payments in the new FHA-insured mortgage of the cash-out refinance transaction. The borrower
inherited the property from a relative and had two mortgages. While the first mortgage was in
the relative’s name, the second mortgage was in the borrower’s name. Within the previous 12
months of the March 13, 2009, settlement date, the first mortgage had been more than 30 and 60
days late on six occasions each and was not current for the month due. An analysis of the loan
servicing billing statement, dated February 12, 2009, revealed that the last mortgage payment
had been made in December 2008, as the borrower had skipped three mortgage payments. The
billing statement reported the following amounts due on March 1, 2009: current payment
amount of $1,275, total amount now due of $4,072, and late charges due of $81. The billing
statement also reported that on March 1, 2009, the monthly principal and interest payment was
set to adjust from $1,358 to $1,275. Using the information above, we calculated the borrower’s
three skipped mortgage payments as follows:

               Months           Skipped mortgage        Late charges         Total
                                    payments
         January 2009                $1,358                  $27             $1,385
         February 2009               $1,358                  $27             $1,385
         March 2009                  $1,275                  $27             $1,302
         Total due on
         March 1, 2009                 $3,991                $81             $4,072

Regarding the second mortgage, within the past 11 months, the borrower had been more than 30
days late on two occasions. Moreover, because the first mortgage had been more than 30 days
late on six occasions and was not current for the month due and the second mortgage had been
more than 30 days late on two occasions, the borrower was not eligible for the cash-out refinance


                                                 42
transaction. Thus, Ameritrust officials should not have approved the loan and included the three
skipped mortgage payments in the new mortgage amount.

HUD-FHA Requirements:

Mortgagee Letter 2005-43 states that to be eligible for a cash-out refinance transaction, the
borrower must have made all of his or her mortgage payments within the month due for the
previous 12 months, no payment may be more than 30 days late, and the mortgage must be
current for the month due.

Paragraph 1-10E of HUD Handbook 4155.1, REV-5, provides that lenders are not permitted to
allow borrowers to skip payments and the borrower is either to make the payment when it is due
or bring the monthly mortgage payment check to settlement because FHA does not permit the
inclusion of mortgage payments skipped by the homeowner in the new mortgage amount.

Inadequate Verification of Borrower’s Occupancy

Ameritrust officials did not adequately verify and document the borrower’s occupancy. This fact
was particularly important since cash-out refinances are only permitted on owner-occupied
principal residences owned by the borrower for at least 1 year. The credit report, dated March 9,
2009, indicated that the borrower had resided in another State since March 2006. The
borrower’s bank statements and the second mortgage loan statement also reflected the
borrower’s out-of-State address. However, Ameritrust officials documented letters from the
borrower, in which he stated that he had resided at the refinanced property since 2006 but had
neglected to update his address. The borrower also certified on the loan application that he
occupied the refinanced property as his primary residence.

In addition, the borrower explained in writing that the payments on the first mortgage had been
late because he was unaware that the legal guardian appointed by the court in 2006 to manage his
ailing relative’s affairs had not made the payments in a timely manner. Had the borrower
occupied the refinanced property, he would have been aware that the mortgage payments were
delinquent. Due to the previously mentioned inconsistencies, the borrower’s occupancy was
questionable. Consequently, Ameritrust officials did not provide adequate assurance that the
borrower occupied the refinanced property as a principal residence for at least 1 year before the
loan closed on March 13, 2009.

HUD-FHA Requirements:

Mortgagee Letter 2005-43 states to be eligible for a cash-out refinance transaction, the subject
property must have been owned by the borrower as his or her principal residence for at least 12
months preceding the date of the loan application.

HUD Handbook 4155.1, REV-5, paragraph 1-11B, states that cash-out refinances are only
permitted on owner-occupied principal residences and are limited to a combined LTV(FHA-
insured first and any subordinate liens) of 85 percent of the appraised value, provided the
property has been owned by the borrower for at least 1 year.

                                                43
Unallowable Fees Charged to Borrowers

Ameritrust officials charged the borrower $1,543 in unallowable fees. Officials charged the
borrower a loan discount fee of 2.5 percent, totaling $7,713. However, a review of the initial
good faith estimate, dated March 13, 2009, revealed that the loan discount fee was 2 percent, or
$6,170. Since the initial and the final good faith estimate were completed on the same day and
Ameritrust officials’ retail rate sheet for the period reflected a loan discount fee of 2 percentage
points applicable to the borrower’s note rate, officials should not have charged an additional 0.5
percent fee.

HUD-FHA Requirements:

Mortgagee Letter 2006-04 requires lenders to charge and collect from borrowers those customary
and reasonable costs necessary to close the mortgage. All fees and charges must comply with
Federal and State disclosure laws and other applicable laws and regulations.

Faxed Asset, Employment and Income, Loan, and Property Documentation

Contrary to requirements, Ameritrust officials used in the loan underwriting process asset,
employment and income, loan, and property documents faxed from unknown sources.
Ameritrust officials processed and underwrote the loan using the following documents faxed
from the same unknown source: a verification of employment, dated March 9, 2009; two bank
statements covering the period November 19, 2008, through January 16, 2009; a quit claim deed,
dated March 23, 2006; and an ARM (adjustable-rate mortgage) interest rate and payment
adjustments letter, dated December 24, 2008. In addition, the breakdown of amount owed for
the second mortgage was faxed from a different unknown source. Consequently, Ameritrust
officials did not provide adequate assurance that these documents passed directly between the
provider and the lender without being handled or transmitted by or through an interested third
party to the transaction.

HUD-FHA Requirements:

According to FHA TOTAL Mortgage Scorecard User Guide, if income or employment, asset, or
other documents are faxed to the lender, the documents must clearly identify the employer,
depository or investment firm’s name, and source of information. The lender is accountable for
determining the authenticity of the document by examining, among other things, the information
included at the top or banner portion of the fax received by the lender. The document itself must also
include a name and telephone number of the individual with the employer or financial institution who
can verify the accuracy of the data.

HUD Handbook 4155.1, REV-5, paragraph 3-1, provides that no document used in the
processing or underwriting of a loan may be handled or transmitted by or through an interested
third party to the transaction. Verification of employment may be faxed if it clearly identifies the
name of the borrower’s employer. Lenders may not accept or use documents relating to the
employment or income of borrowers that are handled by or transmitted from or through
interested third parties or by using their equipment.

                                                 44
FHA case number: 374-5055205

Loan amount: $613,679

Loan purpose: Purchase

Settlement date: March 5, 2009

Status as April 30, 2011: Preforeclosure5 sale completed; HUD paid a claim, totaling $183,327,
on January 23, 2011

Payments before first default reported: Four

Summary:

We found material underwriting deficiencies relating to income, fees charged, and faxed
documentation used in the loan underwriting process.

Incorrect Calculation of Income Resulting in Understated Qualifying Ratios

Ameritrust officials incorrectly calculated the borrower’s total monthly income, thereby
understating the qualifying ratios. By incorrectly calculating the borrower’s base and other
income, officials overstated the borrower’s total monthly income by $3,654. Of that amount,
$921 related to the borrower’s base income and $2,733 to other income.

Ameritrust officials incorrectly calculated the borrower’s base income as $8,049 (the sum of
$76,025 and $84,956 (total income for 2007 and 2008, respectively, as reported on the
verification of employment, dated February 24, 2009) divided by 20 months). However, we
calculated the borrower’s base income as $7,128 (the hourly rate of $47 multiplied by 35 hours
per week multiplied by 52 weeks divided by 12 months). Consequently, base income was
overstated by $921.

In addition, Ameritrust officials incorrectly calculated the borrower’s monthly other income as
$3,045. Officials computed other income by dividing $12,180 (the sum of $5,608 and $1,878 in
additional security benefit funds reflected on the IRS Forms W-2 for 2007 and 2008,
respectively, and $4,694 in vacation holiday unemployment pay reflected on the 2007 IRS Form
W-2) by 4 months. Nevertheless, we calculated the borrower’s monthly other income as $312 by
dividing $7,486 (the sum of $5,608 and $1,878 in 2007 and 2008 additional security benefit
funds, respectively) by 24 months. The 2007 vacation holiday unemployment pay was excluded




5
  In a preforeclosure sale, the lender allows the borrower in default to sell his/her home and use the net sale proceeds
to satisfy the mortgage debt even though the proceeds are less than the amount owed. Since the lender allows the
borrower to sell the property before foreclosure is completed, ownership of the property is not transferred to HUD.



                                                          45
from our computation because Ameritrust officials did not document that such income had been
received for the past 2 years and was likely to continue.

As a result of our recalculation, the borrower’s total monthly income decreased from $12,794 to
$9,140, substantially increasing the qualifying ratios. Specifically, the borrower’s mortgage
payment-to-income (front) ratio increased from 32.48 to 45.46 percent, and the total fixed
payment-to-income ratio (back) increased from 45.73 to 64.01 percent. Since both recalculated
ratios exceeded HUD’s benchmark guidelines of 31 and 43 percent, respectively, Ameritrust
officials would have had to resubmit the current corrected information through the automated
underwriting system to determine whether the risk classification had changed. If so, the loan
would have required significant compensating factors to justify its approval. The following
compensating factors were recorded in the underwriter comments section of the FHA loan
underwriting and transmittal summary: “FICO: 703; prior homeowner with an excellent
mortgage payment history; stable employment with the union.” However, these are not valid
compensating factors as defined by HUD.

The first underwriter comment listed is not a HUD-prescribed compensating factor. While the
credit report reflected the borrower’s “excellent mortgage payment history” over the past 70
months, the proposed monthly mortgage payment of $4,155 was approximately 308 percent
greater than the previous payment of $1,350. Moreover, Ameritrust officials reported that the
borrower had stable employment; however, they did not document the borrower’s potential for
increased earnings as indicated by job training or education in the borrower’s profession.

HUD-FHA Requirements:

According to chapter 2 of the FHA TOTAL Mortgage Scorecard User Guide, the lender is
responsible for verifying the accuracy of the amount of income being reported and for determining
whether it can be considered as effective income in determining the payment-to-income and debt-to-
income ratios. If any information regarding a borrower’s income or employment changes during
loan processing, the lender must resubmit current corrected information through its automated
underwriting system to determine whether the risk classification changes.

HUD Handbook 4155.1, REV-5, section 2, provides that the lender must establish the anticipated
amount of income and the likelihood of continuance. Income may not be used in calculating the
borrower’s income ratios if it comes from a source that cannot be verified, is not stable, or will
not continue. Further, paragraph 2-6 states that the lender is responsible for verifying the
borrower’s employment history for the most recent 2 years.

Unallowable Fees Charged to Borrower

Ameritrust officials charged the borrower a $550 fee that was prohibited by HUD. They charged
the borrower $550 for a second appraisal report but did not document the need for a second
appraisal in accordance with requirements. Neither of the two appraisal reports, dated January 8
and February 17, 2009, indicated that the property was in a declining market. In addition,
Ameritrust officials did not document their determination that the property was located in an area
in which the housing market was in decline.


                                                46
HUD-FHA Requirements:

Mortgagee Letter 2008-09 requires two appraisals if the loan amount, excluding the upfront
mortgage insurance premium, exceeds $417,000; the loan-to-value ratio, excluding any financed
upfront mortgage insurance premium, equals or exceeds 95 percent; and the property is
determined to be in a declining market.

Faxed Asset and Other Documentation

Contrary to requirements, Ameritrust officials used in the loan underwriting process asset and
other documents faxed from another mortgage company and an unidentified source. They
processed and underwrote the loan using the following documents faxed from another mortgage
company: a retirement plan distribution statement, dated January 13, 2009, and a Judgment of
divorce, dated July 11, 2008. In addition, a residential contract of sale, dated November 12,
2008; a builder’s certification, dated February 25, 2009; and a mortgage account statement, dated
January 5, 2009, were all faxed from an unidentified source. Since these documents were faxed
from another mortgage company and an unidentified source, Ameritrust officials did not provide
adequate assurance that these documents were not handled or transmitted by or through an
interested third party to the transaction.

HUD-FHA Requirements:

According to chapter 2 of the FHA TOTAL Mortgage Scorecard User Guide, if asset or other
documents are faxed to the lender, the documents must clearly identify the depository or investment
firm’s name and source of information. The lender is accountable for determining the authenticity of
the document by examining, among other things, the information included at the top or banner
portion of the fax received by the lender. The document itself must also include a name and
telephone number of the individual with the financial institution who can verify the accuracy of the
data.

HUD Handbook 4155.1, REV-5, paragraph 3-1, provides that no document used in the
processing or underwriting of a loan may be handled or transmitted by or through an interested
third party to the transaction. In addition, HUD Handbook 4060.1, REV-2, paragraph 2-18,
states that lenders may not perform only a part of the loan origination process, such as taking the
loan application, and routinely transfer the underwriting package (appraisal report or mortgage
credit package) to another lender.




                                                47
FHA case number: 374-5059265

Loan amount: $654,761

Loan purpose: Purchase

Settlement date: April 17, 2009

Status as April 30, 2011: First legal action to commence foreclosure

Payments before first default reported: Six

Summary:

We found material underwriting deficiencies relating to gift documentation and faxed
documentation used in the loan underwriting process.

Inadequate Gift Fund Documentation
Faxed Documentation

Ameritrust officials did not adequately document the source of two gifts in the amount of
$19,000 and $35,000, totaling $54,000. The loan file contained a gift letter for the $19,000 gift
to the borrower, a copy of a cashier’s check made payable to the borrower’s attorney on March
16, 2009, and a copy of the gift donor’s transaction history reflecting the withdrawal of the gift
funds. However, the donor’s transaction history disclosed a $14,000 online transfer and a $5,000
deposit on the day the donor provided the gift. Before the online transfer and the deposit, the
donor had an account balance of $237.

In addition, a fax banner reflected on a copy of the canceled cashier’s check indicated that it was
faxed from an unidentified source on April 1, 2009, and a copy of the donor’s transaction history
indicated that it was faxed twice from unidentified sources on March 18 and April 1, 2009,
respectively. Consequently, Ameritrust officials did not provide assurance that these documents
passed directly between the provider and the lender without being handled or transmitted by or
through an interested third party to the transaction.

With regard to the $35,000 gift, the loan file contained a gift letter, dated July 9, 2008, a copy of
an official check made payable to the seller’s attorney on the same day, and a copy of the
donor’s bank statement reflecting the withdrawal of the gift funds. However, the donor’s bank
statement disclosed a wire transfer in the amount of $80,278 on July 2, 2008. Before the wire
transfer, the donor had a checking account balance of $0. Later the same day, the donor
transferred $70,000 into her primary share account, which had a previous balance of $31. Using
the funds transferred into her primary share account, the donor purchased an official check on
July 9, 2008, to transfer the $35,000 gift. Nevertheless, without additional evidence regarding
the source of the transfers and the deposit, Ameritrust officials did not provide adequate
assurance that the gifts were from the donor’s personal funds and ultimately did not come from
an unacceptable source.


                                                 48
HUD-FHA Requirements:

HUD Handbook 4155.1, REV-5, paragraph 2-10C, requires the lender to obtain a withdrawal
document or canceled check for the amount of the gift, showing that the funds came from the
donor’s personal account, when the donor purchases an official or cashier’s check as a means of
transferring gift funds. If the donor borrowed the gift funds and cannot provide documentation
from the bank or other savings account, the lender must obtain written evidence from the donor
that those funds were borrowed from an acceptable source, not from a party to the transaction.
Further, paragraph 3-1 provides that no document used in the processing or underwriting of a
loan may be handled or transmitted by or through an interested third party to the transaction.




                                              49
FHA case number: 374-5118521

Loan amount: $358,388

Loan purpose: Purchase

Settlement date: March 9, 2009

Status as April 30, 2011: First legal action to commence foreclosure

Payments before first default reported: Two

Summary:

We found material underwriting deficiencies relating to qualifying ratios, assets, credit history,
fees charged, and faxed documentation used in the loan underwriting process.

Excessive Debt-to-Income Ratios Without Valid Compensating Factors

Ameritrust officials did not document valid compensating factors to justify the approval of a loan
with mortgage payment-to-income (front) and total fixed payment-to-income (back) ratios of
47.14 and 49.05 percent, respectively, which exceeded HUD’s benchmark guidelines of 31 and
43 percent. They recorded the following compensating factors in the underwriter comments
section of the FHA loan underwriting and transmittal summary: “FICO: 601/611; FHA
purchase 3.5% down payment; FHA county limit: $625,500; Borrower was out on disability for
2 months in 2008 for her 2nd job; Income used for her 2nd job was averaged for 2008 and YTD
(12 months); Two months reserves available after closing; Stable employment.” Nevertheless,
these are not valid compensating factors as defined by HUD Handbook 4155.1, REV-5,
paragraph 2-13.

The first four underwriter comments listed are not HUD-prescribed compensating factors. The
earnings from the first borrower’s second job were already considered in the borrowers’
qualifying income. While Ameritrust officials reported that the borrower had 2 months of
reserves available after closing, 3 months of documented cash reserves would have been required
to justify the loan’s approval. In addition, despite the borrowers’ stable employment, Ameritrust
officials did not document the borrowers’ potential for increased earnings.

HUD-FHA Requirements:

Mortgagee Letter 2005-16 states that the qualifying ratios are 31 and 43 percent. If either or both
ratios are exceeded, the lender must describe the compensating factors used to justify the
mortgage approval.

HUD Handbook 4155.1, REV-5, paragraph 2-13, requires ratios exceeding HUD’s benchmark
guidelines to be accompanied by significant compensating factors, documented on the mortgage



                                                 50
credit analysis worksheet, to justify the approval of the mortgage loan and supported by
documentation.

Unsupported Assets

Ameritrust officials did not adequately verify and document the borrowers’ assets. A review of
the borrowers’ transaction history disclosed a $3,087 preauthorized credit on February 2, 2009,
that was not payroll related. In addition, officials reported that the borrowers had verified assets
of $15,043; however, we confirmed only $9,043 of that amount, which included the $3,087.
Since the borrowers needed $7,800 to close and had verified assets of $9,043, Ameritrust
officials should have obtained an explanation from the borrowers regarding the source of this
large credit. Without the explanation, officials did not properly verify and document the
borrowers’ assets needed for closing.

HUD-FHA Requirements:

HUD Handbook 4155.1, REV-5, paragraph 2-10, states that all funds for the borrower’s
investment in the property must be verified and documented. Further, paragraph 2-10B states
that if there is a large increase in an account, the lender must obtain a credible explanation for the
source of those funds.

Significant Credit-Related Deficiencies

Ameritrust officials did not adequately analyze the borrower’s credit history. Officials obtained
neither credible written explanations from the borrowers regarding derogatory information
reflected on their credit reports, including five collections and a chargeoff, nor all inquiries
occurring within the past 90 days. Moreover, despite the borrowers’ major indications of
derogatory credit, Ameritrust officials did not document their justification for approving the loan
as required. (See the above “Excessive Debt-to-Income Ratios Without Valid Compensating
Factors” section.)

HUD-FHA Requirements:

HUD Handbook 4155.1, REV-5, paragraphs 2-3B and C, provide that collections and judgments
indicate a borrower’s regard for credit obligations and must be considered in the analysis of
creditworthiness, with the lender documenting its reason for approving a mortgage when the
borrower has collection accounts or judgments. The borrower must explain in writing all
collections and judgments, as well as inquiries shown on the credit report within the past 90
days.

Unallowable Fees Charged to Borrowers

Ameritrust officials charged the borrowers a $450 fee that was prohibited by HUD. They
charged the borrowers $450 for a second appraisal report but did not document the need for a
second appraisal in accordance with requirements. Since the loan amount, excluding the upfront
mortgage insurance premium, was $352,225 and did not exceed the $417,000 limit, a second
appraisal was not required. Further, the loan file did not contain the second appraisal report.
                                                 51
HUD-FHA Requirements:

Mortgagee Letter 2008-09 requires two appraisals if the loan amount, excluding the upfront
mortgage insurance premium, exceeds $417,000; the loan-to-value ratio, excluding any financed
upfront mortgage insurance premium, equals or exceeds 95 percent; and the property is
determined to be in a declining market.

Faxed Asset or Income and Other Documentation

Contrary to requirements, Ameritrust officials used in the loan underwriting process asset,
income, and credit documents faxed from another mortgage company and an unidentified source.
Ameritrust officials processed and underwrote the loan using the following documents faxed
from another mortgage company: a letter from the treasurer of a private savings club; a CD-IRA
(certificate of deposit-individual retirement account) withdrawal slip, dated January 7, 2009; a
deposit transaction history as of February 18, 2009; and the second borrower’s two pay stubs
reflecting pay dates of February 13 and February 27, 2009. In addition, the following documents
were faxed from an unidentified source: a private savings club account ledger; a deposit slip,
dated March 5, 2009; the first borrower’s two pay stubs from different employers reflecting pay
dates of February 26 and February 27, 2009; two student loan statements, dated August 14, 2008;
and a collection satisfaction letter, dated February 24, 2009. Since these documents were faxed
from another mortgage company and an unidentified source, Ameritrust officials did not provide
adequate assurance that they were not handled or transmitted by or through an interested third
party to the transaction.

HUD-FHA Requirements:

HUD Handbook 4155.1, REV-5, paragraph 3-1, provides that no document used in the
processing or underwriting of a loan may be handled or transmitted by or through an interested
third party to the transaction. Lenders may not accept or use documents relating to the credit,
employment, or income of borrowers that are handled by or transmitted from or through
interested third parties or by using their equipment.

HUD Handbook 4060.1, REV-2, paragraph 2-18, states that lenders may not perform only a part
of the loan origination process, such as taking the loan application, and routinely transfer the
underwriting package (appraisal report or mortgage credit package) to another lender.




                                               52
FHA case number: 374-5512784

Loan amount: $328,652

Loan purpose: Purchase

Settlement date: December 14, 2009

Status as April 30, 2011: Ineligible for loss mitigation

Payments before first default reported: Five

Summary:

We found material underwriting deficiencies relating to gift documentation.

Inadequate Gift Fund Documentation

Ameritrust officials did not adequately document the source of two gifts in the amount of $6,000
and $5,000, totaling $11,000. The loan file contained gift letters, dated November 25 and
December 8, 2009, respectively; copies of official checks issued to the borrower; the borrower’s
deposit tickets showing the deposit amounts; and the transaction histories showing the
withdrawals from the donor’s account. However, a review of the transaction histories revealed
that the gift funds had been deposited into the donor’s account on the day they were withdrawn.
Before the $6,000 and $5,000 deposits on November 25 and December 8, 2009, respectively, the
gift donor had account balances of approximately $5 and $12, respectively. Since Ameritrust
officials did not document additional information regarding whether these funds had been
borrowed from an acceptable source, officials provided no assurance that the gifts were from the
donor’s personal account and ultimately did not come from a party to the transaction.

HUD-FHA Requirements:

HUD Handbook 4155.1, paragraph 5.B.4.d, states that regardless of when gift funds are made
available to a borrower, the lender must be able to determine that the gift funds were not
provided by an unacceptable source and were the donor’s own funds. Further, paragraph 5.B.4.e.
states that as a general rule, FHA is not concerned with how a donor obtains gift funds, provided
that the funds are not derived in any manner from a party to the sales transaction. Donors may
borrow gift funds from any other acceptable source, provided the mortgage borrowers are not
obligors to any note to secure money borrowed to give the gift.




                                                53
FHA case number: 374- 5571175

Loan amount: $378,026

Loan purpose: Purchase

Settlement date: January 29, 2010

Status as April 30, 2011: Chapter 7 bankruptcy

Payments before first default reported: One

Summary:

We found a material underwriting deficiency relating to gift documentation.

Inadequate Gift Fund Documentation

Ameritrust officials did not adequately document the source of two gifts in the amount of $8,791
and $5,000, totaling $13,791. Concerning the $8,791 gift, the loan file contained a gift letter,
dated January 21, 2010; a copy of an official check made payable to the seller’s attorney on
January 9, 2010; and a transaction journal showing the withdrawal of the gift funds from the
donor’s account. However, a review of the donor’s transaction journal disclosed an $8,700
automated phone transfer on the day the donor provided the gift. Further, before the January 9,
2010, deposit, the donor had an account balance of $911.

Regarding the $5,000 gift, the loan file contained a gift letter, dated January 20, 2010; a copy of
a cashier’s check made payable to the coborrower on December 28, 2009; the borrowers’ bank
statement showing the deposit; and the demand deposit account statement inquiry as of
December 28, 2009, evidencing the withdrawal of the gift funds from the donor’s account.
However, the donor’s statement inquiry merely reflected transactions from December 22 through
December 28, 2009. Since the donor’s statement inquiry reflected a beginning balance of $2,169
on December 10, 2009, and an ending balance of $1,204 on December 28, 2009, during the 18-
day period, a total of $7,025 was deposited, and $7,989 was withdrawn from the account,
including $5,000 for the gift. Consequently, Ameritrust officials should have documented the
entire statement inquiry or additional information with regard to the source of the donor’s
deposits to provide assurance that the gift funds were from the donor’s personal account and
ultimately did not come from an unacceptable source.

In addition, since the borrowers used the $13,791 in gift funds for the earnest money deposit,
required no funds to close, and made only one payment before defaulting on the loan, the
borrower’s investment in the property was minimal.

HUD-FHA Requirements:

HUD Handbook 4155.1, paragraph 5.B.4.d, states that regardless of when gift funds are made
available to a borrower, the lender must be able to determine that the gift funds were not
                                                54
provided by an unacceptable source and were the donor’s own funds. Further, paragraph 5.B.4.e
states that as a general rule, FHA is not concerned with how a donor obtains gift funds, provided
that the funds are not derived in any manner from a party to the sales transaction. Donors may
borrow gift funds from any other acceptable source, provided the mortgage borrowers are not
obligors to any note to secure money borrowed to give the gift.




                                               55
